TO:              Dr. Esin Gulari
                 Assistant Director (Acting)
                 Directorate for Engineering

FROM: Deborah H. Cureton
              Associate Inspector General for Audit

SUBJECT:         Audit Report #02-2012:
                 Travel Reimbursements from Industry/University Cooperative Research Centers

DATE: September 25, 2002


         Enclosed is the final report on our audit of NSF travel reimbursements received from Industry/University
Cooperative Research Centers (IUCRC) Program awardees. The audit found that the Division of Engineering
Education and Centers (EEC) accepts approximately $34,000 annually in travel reimbursements from IUCRC
awardees, which represents approximately 34 percent of EEC’s annual travel budget. We believe this practice is
contrary to NSF and Federal policy. In addition, it raises concerns about the appearance of a conflict of interest.
We have included your response to our draft report as an attachment to this report.

         We thank you and your staff for the cooperation extended to us during this audit. If you have any questions
about this report, please contact James Noeth at extension 5005, or William Harrison at extension 4992.


cc:     Division of Engineering Education and Centers
        Office of General Counsel
      Travel Reimbursements for Industry/University
                      Cooperative Research Centers


                                September 27, 2002
OIG 02-2012
                                  EXECUTIVE SUMMARY


        This report provides the results of our audit of NSF Division of Engineering Education
and Center’s (EEC) practice of accepting travel reimbursements from Industry/University
Cooperative Research Centers (IUCRC) Program awardees. The purpose of our review was to
determine whether EEC may receive payment or in-kind contributions from IUCRC awardees
for travel, subsistence, and related expenses with respect to program officer attendance at
Industrial Advisory Board (IAB) meetings.

       The IUCRC Program was established to develop long-term partnerships among industry,
academe, and government. The Centers are started with a small NSF investment and are
primarily supported by the Center members, representing both universities and industry, that pay
“membership fees” to support Center research projects. Under the IUCRC program, each Center
has an IAB that meets twice a year to review ongoing and completed activities and select new
Center research projects. For many years, EEC program officials have attended IAB meetings to
enunciate or interpret NSF policy to prevent misunderstanding by either the university or
industry partners.

        To cover the associated travel costs, EEC has accepted $32,375 in FY 1999 and $37,280
in FY 2000 from IUCRC awardees for program officials to attend the biannual IAB project
review and selection meetings, which represents approximately 34 percent of EEC’s annual
travel budget. At the same time EEC was accepting these funds, its program officials were
overseeing these same awardees and making continuing annual award funding decisions. This
occurred because the Engineering Directorate’s travel budget was insufficient to cover the travel
costs and the Office of General Counsel had advised them that accepting the IUCRC
reimbursements was an acceptable alternative.

        Although we do not believe that EEC program officers gave preferential treatment to
IUCRCs in return for travel reimbursements, acceptance of travel costs from NSF awardees raise
concerns about the appearance of a conflict of interest. NSF could be viewed as biased or giving
preferential treatment to IUCRCs in response to providing travel funds. This may not be the type
of perception that NSF would like to project when it is responsible annually for awarding
approximately $4.3 billion in public funds. In addition, this practice is inconsistent with NSF's
Standard of Conduct policies which state “NSF must earn the confidence of the scientific,
engineering, and educational communities, of the Congress, and of the general public in the
integrity, effectiveness, and evenhandedness of its decisionmaking processes. It will not do so if
these processes are seen to be compromised by conflicts of interest.”

         We believe NSF management has another option for funding IUCRC travel costs. NSF
can reevaluate its travel budget allocations to its divisions and programs and provide additional
travel funds to the IUCRC program. This option would ensure the integrity of NSF’s decision-
making processes and eliminate possible concerns with the appearance of conflict of interest
issues or the potential improper augmentation of NSF’s appropriation. Therefore, we encourage
NSF and the IUCRC program to reconsider its practice of accepting travel funds from the
Centers that it is overseeing and for whom it is making annual funding decisions. NSF disagreed
that its acceptance of travel funds is contrary to NSF or federal policy but decided to use other
funding sources for future travel under the IUCRC program.
                             TABLE OF CONTENTS

INTRODUCTION

    Background                                   Page 1
    Objectives, Scope, and Methodology           Page 1

RESULTS OF AUDIT                                 Page 3

ATTACHMENT                                       Page 9
                                      INTRODUCTION


Background

       The IUCRC Program was initiated in 1973 to develop long-term partnerships among
industry, academe, and government. The Centers are started with a small NSF investment and
are primarily supported by the Center members, representing both universities and industry
partners, which pay “membership fees” to support Center research projects. NSF maintains a
supporting role in the Centers’ development and evolution. IUCRC awards are initially for five
years in amounts up to $100,000 per year. Even though there is a 5-year grant commitment,
funding currently is renewable annually and each IUCRC Center is required to submit an Annual
Report to NSF on its progress and plans. After the initial five years, Centers that continue to be
successful by meeting the program requirements can apply for an additional five years of NSF
funding of up to $50,000 per year. After 10 years, Centers are expected to be fully supported by
non-NSF sources.

       The IUCRC Program requires that each Center receive at least $300,000 annually in
“membership fees” from at least six partners. Center Directors must annually certify that the
Centers have met their “membership fee” requirements. Centers that do not meet this
requirement are generally given one year within which to “catch-up.” A Center that still cannot
generate the required amount of “membership fees” is terminated. NSF currently spends
approximately $5 million annually for approximately 50 IUCRCs through cooperative
agreements with the University partners.

        Under the IUCRC program, each Center has an IAB that meets normally twice a year to
review ongoing and completed activities and select new Center research projects. For many
years, program officials in NSF’s EEC have been acting as NSF liaisons at annual IAB meetings
with IUCRCs. The purpose of having a NSF staff member present at IAB meetings is to
enunciate or interpret NSF policy to prevent misunderstanding by either the university or
industry partners. NSF feels that its presence at these meetings is valuable to the industry
partners because NSF staff can interpret its expectations for the operations of the IUCRC. NSF
staff through its past experiences with IUCRCs is also able to provide valuable advice at
meetings to help ensure more success in the program. Industrial members’ fees have been used
to reimburse NSF for travel expenses for its program officials to attend the IAB meetings.

Objective, Scope, and Methodology

       The audit objective was to determine whether EEC can accept payment or in-kind
contributions from awardee institutions for travel, subsistence, and related expenses for NSF
employees to attend meetings or events to carry out the Foundation’s statutory or regulatory
functions. The review was limited to travel reimbursements received by the IUCRC Program
during fiscal years 1999 and 2000. The reimbursement data was obtained from an IUCRC
Travel Log maintained by EEC. We interviewed NSF and IUCRC awardee officials and
reviewed applicable NSF and Federal policies and procedures.




                                                1
       We conducted our audit in accordance with the Comptroller General’s Government Audit
Standards and included such tests of accounting records and other auditing procedures, as we
considered necessary to fully address the audit objectives.




                                             2
                                        RESULTS OF AUDIT


NSF is Accepting Travel Reimbursements From Awardees

        EEC has been accepting IUCRC reimbursement for travel costs associated with its
ongoing award oversight process contrary to NSF and Federal policy. Established policy
discourages employees from accepting contributions for official travel from awardees in order to
avoid the appearance of a conflict of interest. Yet, NSF accepted $32,375 in FY 1999 and
$37,280 in FY 2000 from IUCRC awardees for agency officials to attend their biannual
Industrial Advisory Board (IAB) project review and selection meetings. As a result, NSF may
have created the appearance of a conflict of interest with its awardees and may have improperly
augmented its appropriation. This occurred because the Engineering Directorate’s travel budget
was insufficient to cover the associated travel costs and the NSF’s Office of General Counsel had
advised them that IUCRC funding of the travel was an acceptable alternative.

NSF and Federal Policy Discourage Acceptance of Contributions For Federal Travel

        OD Memorandum 91-17, NSF Staff Travel Paid for by Non-Federal Sources, establishes
NSF policy for accepting travel contributions from all non-Federal sources and recognizes that
travel reimbursements may appear improper if received from one of its awardees:

       As a matter of policy, the National Science Foundation strongly discourages
       employees from accepting contributions for official travel or related expenses
       from NSF Awardees. Moreover, in no case should NSF staff directly or indirectly
       solicit travel contributions from outside sources. Having travel expenses paid by
       an awardee may not violate a specific law, but it may create the appearance of a
       conflict of interest.

        Further, one of the Federal government’s basic ethical principles is that employees shall
"endeavor to avoid any actions creating the appearance that they are violating the law or the
ethical standards."1 NSF has its own guidance concerning conflicts of interest and ethical
standards. One of the underlying considerations contained in this guidance is that employees
"and the NSF should avoid or minimize actual or apparent conflicts of interest."2 The
perspective used to determine whether particular events, decisions, or other circumstances create
the appearance that laws or standards have been violated is determined from that of “a
reasonable person with knowledge of the relevant facts.” 3 This is required so that NSF can
safeguard the public’s confidence "in the integrity, effectiveness, and evenhandedness of its
decision making processes. It will not do so if these processes are seen to be compromised by
conflicts of interest."4

1
       5 C.F.R. § 2635.101(14).
2
       NSF Manual 15: Conflicts of Interest and Standards of Ethical Conduct §2(b) (1997) (emphasis added).
3
       5 C.F.R. § 2635.101(14).
4
       Id.



                                                      3
        The Federal Government’s interest in maintaining the public trust and avoiding even the
appearance of conflicts of interest is also manifested in its regulation of Federal employee travel.
A travel reimbursement is a thing of value and receiving a reimbursement from an external
entity, having an interest in NSF’s funding decisions, may be seen as potentially impairing the
Federal Government’s impartiality. Consequently, the Federal Travel Regulations (FTR)5 allow
reimbursement for travel expenses from non-Federal sources only under certain circumstances.
Specifically, Federal travel that is paid from non-Federal sources must be for a "meeting or
similar function" as defined by the FTR and the employee may not solicit the payment. Further,
before the travel occurs, agency officials must still perform a conflict-of-interest analysis for
each reimbursement to ensure that acceptance would not “cause a reasonable person with
knowledge of all the facts relevant to a particular case to question the integrity of agency
programs or operations." Thus, the appearance of impropriety standard applies to these travel
reimbursements.

         However, contrary to NSF and Federal policy, NSF’s IUCRC program has been
accepting travel reimbursements from its awardees for over 15 years. EEC accepted travel
reimbursements valued at $32,375 in FY 1999 and $37,280 in FY 2000 from IUCRC awardees
for agency officials to attend IAB meetings for reviewing ongoing and completed Center
activities and selecting new research projects. At each Center’s initial IAB meeting, the NSF
program official, either directly or indirectly, informs the IAB that if the industry members want
future NSF assistance, they will need to authorize the university to use a portion of the Center’s
industry funds to reimburse NSF for travel expenses. After the NSF program official leaves the
room, the IAB attendees discuss this option and record their decision in the meeting minutes.
Virtually all 50 NSF-funded IUCRCs vote to pay for Foundation program officials’ travel
expenses to participate in all future IAB meetings.

        As a result, EEC acceptance of travel reimbursements from IUCRC awardees over the
years may have created the appearance of a conflict of interest. The Foundation could be viewed
as biased or giving preferential treatment to IUCRCs in response to providing travel funds. This
is not the type of perception that NSF would like to project when it is responsible annually for
awarding approximately $4.3 billion in public funds. According to its Customer Service Plan,
NSF "provides for a fair and reasonable review and consideration of every eligible proposal."
However, this system of review can be compromised if NSF's customers perceive it to be biased
because of the appearance of a conflict of interest. As stated in NSF's Ethics Manual:

       The success of the NSF in performing its functions depends on the effectiveness
       of its decisionmaking processes. If judgments are warped or biased because of
       conflicting interests, that effectiveness is compromised.

       NSF must earn the confidence of the scientific, engineering, and educational
       communities, of the Congress, and of the general public in the integrity,
       effectiveness, and evenhandedness of its decisionmaking processes. It will not do
       so if these processes are seen to be compromised by conflicts of interest.6


5
       41 C.F.R. § 304-1.1 et seq.
6
       NSF Manual 15: Conflicts of Interest and Standards of Ethical Conduct §2(b) (1997).

                                                      4
        Based on our interviews with NSF program and Center staff, it appears that the travel
reimbursement practice for Foundation officials to attend IAB meetings is universally accepted
in the IUCRC community and that both NSF and Center managers believe that this practice is an
efficient and effective use of industry funds. However, we believe that “a reasonable person
with knowledge of the relevant facts” could arrive at the opposite conclusion. By accepting
reimbursements for IUCRC-related travel, NSF may give the appearance that its decisions can be
influenced. For example, potential NSF awardees, and particularly those who have been denied
NSF funding, may see the practice as improper or biased. Additionally, the Center’s industry
participants, who may be less familiar with NSF and its merit review process, may view the
travel reimbursement process as a normal cost of doing business with NSF.

Insufficient Travel Budget and Office of General Counsel Advice Lead to IUCRC Travel
Reimbursements

        Cognizant NSF program officials stated that the IUCRC program has been accepting
travel reimbursements from the University/Centers because EEC’s travel budget is not adequate
to cover the travel costs to each IAB meeting. The EEC supports three center programs,
including the IUCRC program, as well as various other education and human resource programs.
All of these programs require oversight as delineated in NSF's FY 2001 Congressional Budget
Request:

       Good management is critical to the success of the research and education
       activities that we support, and proper and sufficient oversight is vital to this
       process. Without an increase in total travel authority, the Foundation will be
       unable to ensure both a reliable merit review process and the oversight
       recommended by the agency’s Inspector General.

        In FY 1999, EEC received appropriated funds of $112,957 to support travel related to all
of its many programs. Because of the annual site visit requirement, EEC has given priority to
funding travel for overseeing its 25 Engineering Research Centers and Earthquake Engineering
Research Centers. In comparison, NSF does not require site visits to IUCRCs and the EEC does
not have adequate funds to cover these non-mandatory site visits. For example, in FY 1999,
IUCRC-related travel reimbursements totaled $32,375 or 29 percent of EEC’s total travel
obligations of $112,957. Similarly, in FY 2000, IUCRC travel reimbursements represented 39
percent or $37,280 of EEC’s total travel obligations of $95,608. Clearly, without reimbursements
from IUCRC awardees, travel to the non-mandatory IAB meetings would be less likely as the
IUCRC would have to compete with other EEC programs for limited travel funds. This could
reduce NSF interaction with the Centers and severely cripple the IUCRC program according to
one program officer.

         In addition, NSF’s Office of General Counsel (OGC) has advised EEC that accepting
travel reimbursements from IUCRC awardees was appropriate. During the 15 years that the
IUCRC program has been accepting travel reimbursement, EEC has requested and obtained
several OGC legal determinations on the propriety of the travel reimbursements. According to
EEC officials, the OGC position over the years has always been that the IUCRC travel
reimbursements are acceptable. Both EEC and OGC officials, however, were only able to
provide us with a written copy of the most recent legal opinion. We were informed the OGC
initially concluded that there was no conflict of interest in program officials attending IAB

                                               5
meetings because NSF funding to Centers was awarded on a 5-year basis and not an annual
basis. EEC officials stated that subsequently the OGC determined that the travel reimbursements
were acceptable pursuant to Ethics Reform Act provisions. In its latest opinion, OGC concluded
that IUCRC contributions should be accepted under NSF’s statutory gift acceptance authority.7
Details of the specific OGC decisions follow.

        According to EEC officials, in the mid-1980’s, the OGC’s first legal opinion concluded
that the IUCRC industrial members could reimburse NSF for program officials’ travel if the IAB
wanted a NSF liaison to assist with the industry/university interactions necessary for the Center.
At that time, funding for the Centers was committed at one time for an entire 5-year period and
annual renewal of funding was not required. Thus, EEC officials stated that OGC reasoned there
was no conflict of interest, because funding or renewal decisions could not be associated with
program officials’ attendance at the IAB meetings. In addition, the OGC concluded there was no
conflict of interest because the University/Center itself was not directly reimbursing NSF for
travel funds. Rather, the IAB, who represented the industrial members of the Center, provided
the funds and they were only being channeled through the University/Center to be deposited with
NSF. In OGC’s view, the funds were not being directly received from a NSF awardee.8

       In 1991, EEC asked the OGC for a “blanket approval” for these travel reimbursements to
reduce the administrative burden of receiving approval for each reimbursement individually.
According to EEC officials, OGC responded that absent special circumstances, the funds should
be viewed as travel reimbursements for an occasional “meeting or similar function” under the
Ethics Reform Act provisions, thus acceptable for NSF’s receipt. 9 The reimbursements had to be
reported to the Office of Government Ethics and EEC was instructed to use NSF Form 1311 to
document each required agency approval pursuant to the implementing General Services
Administration (GSA) regulations.

        In 1999, OGC revisited the issue of the travel reimbursements for the IUCRC Program.
OGC determined that the IAB meetings do not fall within the purview of the Ethics Reform Act
because the GSA regulations specifically exclude meetings that are required to carry out the
agency’s statutory or regulatory functions such as site visits. OGC determined that NSF
attendance at the IAB meetings was not like the sort of sporadic or occasional meetings,
conferences, or workshops to which NSF staff is, from time to time, invited. Rather, NSF
participation at IAB meetings occurs on a very regular basis pursuant to an established and
ongoing NSF oversight process. OGC stated that GSA has made it clear that an agency should
use its statutory gift acceptance authority (if any) where a regular agency function is involved.
Because NSF has statutory gift acceptance authority, OGC determined that IUCRC contributions
to NSF should be accepted under the gift authority and not under the Ethics Reform Act.



7
        We requested OGC case files or other documentation supporting its three IUCRC travel decisions. OGC
only provided documentation for the 1999 decision that did not include an analysis supporting the decision.
8
         Currently, NSF renews IUCRC awards annually. Further, awardee institutions incur expenditures for
administratively processing NSF travel claims and are, therefore, co-sponsors with industrial members in providing
the travel funds.
9
        41 C.F. R. § 304-1.3(a)

                                                        6
        However, our analysis of applicable Federal and agency statutes and regulations
disclosed that IUCRC-funded travel reimbursements are not “gifts” as defined by the
Comptroller General. Thus, contrary to OGC’s 1999 legal opinion, the reimbursements may not
be acceptable under NSF’s “gift acceptance authority ” and may be an improper augmentation of
Federal appropriations. Specifically, the Federal Travel Regulations (FTR) and the implementing
GSA regulations provide that when “authorized pursuant to an agency gift statute,” an agency
may accept reimbursement for travel that is related to the official duties of the employee.10 As
OGC stated in 1999, "NSF participation at these IAB meetings occurs on a very regular basis
pursuant to an established and ongoing NSF oversight process." Accordingly, OGC concluded
that these reimbursements could not be accepted under the FTR governing reimbursement for
attendance at an occasional "meeting or similar function." Rather, OGC stated that these
reimbursements should be "accepted under NSF's regular gift acceptance authority."

        NSF’s organic legislation grants the authority for NSF to “receive and use funds donated
by others, if such funds are donated without restriction other than that they be used in furtherance
of one or more of the general purposes of the Foundation.”11 This is commonly known as NSF’s
“gift acceptance authority.” It is under this authority that OGC concluded in 1999 that it should
accept reimbursement for travel to IAB meetings. However, this conclusion is not supported by
Comptroller General Decisions.

        Specifically, the Comptroller General has rendered several decisions defining the
parameters of the term “gift” for purposes of agency gift acceptance authority. The Comptroller
General has defined gifts as “gratuitous conveyances or transfers of ownership in property
without any consideration.”12 However, NSF’s participation at IAB meetings could be viewed as
a “consideration” to Centers for which NSF is being paid a fee. In particular, Centers receive
“consideration” from NSF when program officers enunciate and/or interpret NSF policy at IAB
meetings to prevent misunderstanding by either the University or Industry partners. Further, NSF
has indicated that its presence at these meetings is valuable to the industry partners because NSF
staff can interpret for industry its expectations for IUCRC operations. While Centers indicated
that they generally do not feel an obligation to make the reimbursement, they do believe that
there is a risk in not electing to reimburse NSF’s travel expenses. One Center Director
mentioned that the risk would be that NSF would not be available to point out problems as they
arise or help the Center follow program processes and procedures. According to NSF, this might
jeopardize the success of a Center.

        Consequently, the IUCRC travel reimbursements may not be classifiable as “gifts” within
the parameters defined by the Comptroller General, and as such should not be credited to NSF’s
appropriation account under the Foundation’s gift acceptance authority. To the extent that these
reimbursements are considered to be fees, NSF lacks the authority to either collect or retain fees,
and could potentially be improperly augmenting its appropriations. When Congress appropriates
funds for a Federal activity, the appropriation represents a limitation Congress has fixed for that
activity, and all expenditures for that activity must come from that appropriation absent express
authority to the contrary.
10
       41 C.F.R. § 304-1.8(a)(3).
11
       42 U.S.C. § 1870(f).
12
       25 Comp. Gen. 637 (1946) (emphasis added).

                                                    7
Conclusion

        Although we have no reason to believe that EEC program officers actually gave
preferential treatment to IUCRCs in return for travel reimbursements, the Division’s acceptance
of travel funds from the same NSF awardees that it is overseeing and for whom it is making
annual funding decisions raise concerns about the appearance of a conflict of interest and the
possible improper augmentation of NSF’s appropriation. In addition, this practice is inconsistent
with NSF policy which “strongly discourages” employees from accepting travel reimbursements
from its awardees.

        More importantly, another option is available to NSF management. NSF can reevaluate
its travel budget allocations to its divisions and programs and make more travel funds available
to the IUCRC program. Even though IUCRC travel reimbursements are a significant portion of
the EEC’s total travel budget, they are a very small part of the Foundation’s overall travel
allocation of $15 million. Thus, reallocation of approximately $34,000 annually for IUCRC
travel should not significantly impact other NSF programs. This option (i.e., using appropriated
funds) would help ensure the integrity of NSF’s decision-making processes and eliminate any
possible concern with conflict of interest appearance issues or the possible unauthorized
augmentation of NSF’s appropriation. Therefore, we encourage NSF and the IUCRC program to
reconsider its practice of accepting travel funds from the Centers and awardees that it is
overseeing and for whom it is making annual funding decisions.

Management Comments

        We provided our draft report to Assistant Director for the Directorate for Engineering.
The Assistant Director and Office of General Council disagreed that NSF’s acceptance of travel
funds from IUCRC awardees is contrary to NSF or federal policy but decided for future travel to
use other funding sources.




                                               8
